HHS/OIG-Audit--"Compliance with the Prompt Payment Adt by the Food and Drug Administration, (A-15-96-40002)"
Department of Health and Human Services
Office of Inspector General -- AUDIT
"Compliance with the Prompt Payment Act by the Food and Drug Administration,"
(A-15-96-40002)
May 5, 1997
Complete Text of Report is available in PDF format
(3.1 mb). Copies can also be obtained by contacting the Office of Public Affairs
at 202-619-1343.
EXECUTIVE SUMMARY:
This report provides the results of our review of compliance by the Food and
Drug Administration (FDA) with the Prompt Payment Act (Act). The audit objectives
were to determine whether FDA meets Office of Management and Budget (OMB) Circular
A-l 25, "Prompt Payment" requirements for having an adequate payment
process to pay bills on-time, accurately reporting payments and progress made
with respect to complying with the Act, and assessing its payment process.
We found that FDA's payment process does not meet OMB's performance standard
for paying bills on time, and reports of payments and progress made with respect
to complying with the Act are inaccurate. The FDA does not assess the process
used for making most payments and processes at the headquarter's office that
are assessed are not comprehensive.
The report contains recommendations for improving FDA's process of making payments,
of reporting on progress and problems, and of assessing the reliability of its
payment process. The FDA concurred with most of our recommendations when commenting
on the draft report. We believe that full implementation of our recommendations
would materially improve the credibility of FDA's assertions that it is in compliance
with the Act.